           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       EFFECTIVENESS OF SPECIAL
    INDICATOR CODES ON THE SOCIAL
      SECURITY ADMINISTRATION’S
            NUMIDENT FILE

     August 2009   A-08-09-19099




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 26, 2009                                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Effectiveness of Special Indicator Codes on the Social Security Administration’s
        Numident File (A-08-09-19099)


        OBJECTIVE
        Our objective was to assess the effectiveness of Special Indicator codes on the Social
        Security Administration’s (SSA) Numident file.

        BACKGROUND
        SSA adds Special Indicator codes to Numident records to alert employees to special
        situations, identify Social Security numbers (SSN) that individuals obtained fraudulently,
        prevent unauthorized disclosure of information, block the issuance of replacement SSN
        cards and SSN verification printouts, 1 and prevent verification of SSNs. SSA initially
        established five Special Indicator codes in 1992, adding one code in 1999 and another
        in 2004. SSA added two codes in 2007 in response to the Intelligence Reform and
        Terrorism Prevention Act of 2004, 2 which required that the Agency add death and fraud
        indicators to its SSN verification systems for employers, State agencies issuing driver’s
        licenses and identity cards, and other verification routines that the Commissioner of
        Social Security determines to be appropriate. These codes identify situations where
        (1) the Office of the Inspector General (OIG) determined an individual fraudulently
        obtained an SSN or (2) the Agency assigned a new SSN because of misuse of the
        original number. 3 As of November 2008, about 46,000 of the 453 million SSNs on the
        Numident had Special Indicator codes. Table 1 describes the Special Indicator codes
        on the Numident.

        1
          The Privacy Act of 1974, as amended, 5 U.S.C. 552a § 2(b)(3), gives individuals the right to information
        about themselves in SSA’s systems of records. In January 2002, because of concerns about potential
        identity theft, SSA began issuing SSN Printouts, which contain only an individual’s name and SSN.
        2
            Pub. L. No. 108-458 § 7213(a)(2).
        3
          SSA refers to codes 1 through 7 as Special Indicator codes and codes 8 and 9 as fraud codes. We use
        the term ”Special Indicator code” throughout this report to refer to all nine codes. SSA uses all codes for
        internal purposes and codes 8 and 9 in its SSN verification systems.
Page 2 - The Commissioner



                 Table 1: Special Indicator Codes on the Numident as of November 2008
          Code                               Description                                      Number
            1     False Identity                                                                5,598
            2     Noncitizen Not in Status                                                      9,291
            3     Multiple SSNs with Different Identities                                       2,718
                                                           4                                    2,476
            4     Scrambled Earnings with New SSN Assigned
            5     SSN Obtained Using Fraudulent Documentation                                 18,172
            6     SSN Assigned Based on Harassment/Abuse/Life Endangerment                    14,734
            7     Fictitious Identity                                                           1,159
            8     Fraud–OIG Investigated                                                          902
            9     Fraud SSN Misuse                                                                635
          Total number of Special Indicator codes                                              55,685
           Number of SSNs                                                                      45,736
         Source: OIG analysis of Numident data.

During the replacement SSN card application process, automated systems 5 alert SSA
field office personnel to the presence of Special Indicator codes on the Numident. SSA
has similar alerts when issuing SSN printouts. In addition, SSA uses Special Indicator
codes 8 and 9 in its SSN verification systems, which return a non-verified response to
employers and other third parties. Appendix B shows historical trends of Special
Indicator codes.

To accomplish our objective, we reviewed relevant SSA policies and procedures. We
also interviewed personnel from SSA Headquarters in Baltimore, Maryland, and
selected field offices nationwide. From the Numident, we identified a population of
45,736 SSNs that had a Special Indicator code as of November 2008. From SSA’s
Special Indicator Transaction File, 6 we identified 2,279 Special Indicator code additions
and 510 code deletions in Fiscal Year (FY) 2008. We tested these populations to
determine whether (1) controls were working as intended and (2) field office personnel
were complying with policies and procedures. Appendix C includes a detailed
description of our scope and methodology.




4
  Wages or self-employment income belonging to one individual but posted to another person’s earnings
record.
5
  Field office personnel use SSA’s Visitor Intake Process (VIP) to manage office interviews. Within VIP,
the Customer Service Query provides information from various SSA databases, including the Numident.
To process replacement SSN card applications, personnel use SS-5 Assistant, a Microsoft Access-based
application that works in conjunction with the Modernized Enumeration System (MES).
6
    SSA’s MES captures “add” and “delete” transaction data for all Special Indicator codes.
Page 3 - The Commissioner


RESULTS OF REVIEW
Although SSA policies and procedures instructed field office personnel to add/delete
certain Special Indicator codes, employees did not always properly do so. We believe
this occurred primarily because field office personnel were not aware of policies and
procedures or clear about which Special Indicator codes they should add/delete. We
believe that failure to comply with policies and procedures may increase the Agency’s
risk of exposure to inappropriate issuance of replacement SSN cards or unauthorized
disclosure of information. SSA has the opportunity to take additional steps to enhance
the effectiveness of Special Indicator codes and reduce its risk of improper SSN
issuance and unauthorized disclosure of information.

FIELD OFFICE PERSONNEL DID NOT ALWAYS ADD SPECIAL INDICATOR
CODES APPROPRIATELY

SSA policies and procedures instruct field office personnel to add Special Indicator
codes to the Numident when they identify situations meeting certain criteria. However,
we found that field office personnel did not always add such codes to the Numident
when required. For example, 15 (75 percent) of the 20 field offices we contacted
informed us they generally did not add Special Indicator codes 2, 3, and 4 although field
office personnel are the primary source for identifying and adding these codes. While
we recognize that field offices can add Special Indicator codes 1, 5, and 7 to the
Numident, field office personnel informed us they generally refer such cases to the OIG
for review. In addition, field office personnel are not authorized to add code 6, and SSA
adds codes 8 and 9 through automated processes.

As shown in Table 2, less than 4 percent of field offices nationwide added Special
Indicator codes 2, 3, or 4 in FY 2008. That is, about 96 percent of all field offices
nationwide did not add any of these codes to the Numident. These numbers appear to
corroborate information received from field office personnel.

                   Table 2: Special Indicator Codes 2, 3, and 4 Added in FY 2008
                                                                 Number of
      Special                                    Number of      Field Offices       Percentage of
     Indicator                                    Codes            Adding           Field Offices
       Code              Description              Added            Codes             Nationwide 7
         2      Noncitizen Not in Status           135               46                   3.6
                Multiple SSNs with Different
         3      Identities                            127             34                 2.6
                Scrambled Earnings with
         4      New SSN Assigned                       67             48                 3.7
    Source: OIG analysis of Special Indicator code transaction data SSA provided.




7
  According to SSA’s Division of Resource Management Information’s Management Information Reports
Intranet website, SSA had 1,296 field offices as of September 28, 2007.
Page 4 - The Commissioner


We believe the following examples illustrate field office personnel’s lack of awareness of
policies and procedures.

   Personnel at 1 field office informed us they receive over 700 replacement SSN card
    applications each year from noncitizens who provide expired immigration documents 8
    and about 4 applications from individuals who have multiple SSNs under different
    identities or name spellings. Field office personnel informed us they did not add
    Special Indicator codes 2 or 3 to the Numident because they were not aware of SSA
    policies and procedures instructing them to do so.

   Personnel at a Social Security Card Center informed us they receive between
    250 and 500 replacement SSN card applications each year from noncitizens who do
    not have a current immigration status. This office also processes between 150 and
    200 replacement SSN card applications each year from individuals assigned new
    SSNs to resolve scrambled earnings. However, in FY 2008, this office only added
    one Special Indicator code 2 and one code 4. Management acknowledged that staff
    may not always be aware of situations in which the Agency should add Special
    Indicator codes.

In addition, although SSA policies and procedures only authorize the Office of Central
Operations (OCO) to add Special Indicator code 6, we found that field office personnel
added this code to three Numident records in FY 2008. Moreover, field offices
completed processing of these SSN applications instead of forwarding the evidence to
OCO for final determination, as required by SSA policies and procedures. Furthermore,
some field offices added Special Indicator codes to the Numident that were not always
complete or accurate. For example, 972 (36 percent) of the 2,718 SSNs on the
Numident with Special Indicator code 3 were not cross-referenced to other SSNs of the
same individual. 9 We believe SSA should either cross-reference these cases or delete
the Special Indicator code from the Numident. We plan to send these cases to SSA for
further review.

We believe field office personnel did not properly add Special Indicator codes because
they were not aware of policies and procedures or clear about which codes they should
add/delete. Some field office personnel informed us they were confused about which
codes should be added in certain situations, and others acknowledged they had never
heard of Special Indicator codes. Field office employees stated they had received
minimal instruction in this area and would benefit from refresher training.



8
  Program Operations Manual System, RM 00203.400, indicates that all applicants for a replacement
SSN card who allege a foreign place of birth and/or who are not U.S. citizens must submit evidence of
lawful alien status or Department of Homeland Security-granted work authorization. In addition, SSA
personnel verify noncitizen evidentiary documents with the Department of Homeland Security and/or the
Department of State before replacement SSN card issuance.
9
 When SSA issues an individual more than one SSN, it must link (cross-reference) the SSNs so earnings
can be properly credited to his/her earnings record.
Page 5 - The Commissioner


Our analysis of Special Indicator codes appears to corroborate information received
from field office personnel. For example, we identified seven instances where field
office personnel added five Special Indicator codes to a Numident record on the same
day. In addition, we identified 120 instances where personnel added 4 codes to a
Numident record. While we recognize there are legitimate reasons why Numident
records have multiple Special Indicator codes, we believe these examples illustrate that
some field office personnel may be unclear about the proper code to add. In addition,
during a March 2007 meeting of SSA’s Architecture Review Board, 10 officials stated that
field office personnel often do not recognize the nuances among Special Indicator
codes and sometimes use them interchangeably.

Based on our discussions with field office personnel and analysis of Special Indicator
codes, we believe SSA should assess its policies and procedures regarding such
codes. In some areas, SSA may need to clarify its policies and procedures and
appropriately train field office personnel to ensure they clearly understand the proper
Special Indicator codes they should add.

FIELD OFFICE PERSONNEL DID NOT ALWAYS DELETE SPECIAL INDICATOR
CODES APPROPRIATELY

SSA policies and procedures allow for field office personnel to delete certain Special
Indicator codes from the Numident when, for example, they determine such codes are
in error or applicants prove they are eligible to receive a replacement SSN card.
However, we found that field office personnel did not always delete Special Indicator
codes from the Numident when policy permitted removal. For example, we identified
575 cases where SSA issued a replacement SSN card after Special Indicator
code 2 had been added to the Numident. We reviewed 50 of these cases and
determined that SSA properly issued the replacement SSN cards. As such, SSA should
have deleted Special Indicator code 2 from the Numident. We plan to refer the
remaining SSNs to SSA for possible corrective action. We also identified 23 cases
where SSA did not delete Special Indicator code 5 from the Numident although
applicants had provided documentation they were eligible to receive a replacement SSN
card. 11 Other than Special Indicator codes 2 and 5, we did not identify any instances
where SSA failed to delete codes when permitted to do so.

In addition, field office personnel did not always obtain OIG approval before deleting
Special Indicator code 7, as required by SSA policies and procedures. Of the
13 Special Indicator code 7 records SSA deleted in FY 2008, field office personnel did
not obtain OIG approval in 7 (54 percent) cases.


10
   SSA’s Enterprise Architecture establishes the framework to ensure that information technology
investments align with SSA’s strategic business plans. SSA established the Architecture Review Board
to oversee, manage, and enforce compliance with the enterprise architecture.
11
  If personnel do not delete Special Indicator code 2 or 5, the field office receives an enumeration
feedback message (generated when application data conflicts with SSA records) the following day, which
management must resolve before completing the SSN replacement card application.
Page 6 - The Commissioner


We believe field office personnel did not always properly delete Special Indicator codes
because they were not aware of applicable policies and procedures. Field office
employees informed us they had received minimal instruction in this area and would
benefit from refresher training.

OPPORTUNITIES TO HELP ENSURE FIELD OFFICE COMPLIANCE WITH
POLICIES AND PROCEDURES

When field office personnel do not fully comply with policies and procedures for adding
and deleting Special Indicator codes, the Agency increases its risk of inappropriate
issuance of replacement SSN cards or unauthorized disclosure of information, such as
improperly issuing SSN printouts. 12 While the SS-5 Assistant and the MES alert field
office personnel to Special Indicator codes, these automated systems do not prompt
staff to add codes when appropriate. For example, when field office personnel confirm
a noncitizen applying for a replacement SSN card does not have a current immigration
status, automated systems do not prompt personnel to add Special Indicator code 2 to
the Numident. In addition, automated systems do not require that field office staff delete
Special Indicator codes before SSA issues replacement SSN cards.

To help ensure field office compliance with policies and procedures, we believe SSA
should implement systems enhancements and consider controls in SS-5 Assistant and
MES and/or its Social Security Number Application Process (SSNAP) 13 that would
guide field office personnel during the replacement SSN card process. That is, when
field office personnel encounter a situation where they should add a Special Indicator
code, systems prompts would alert them to do so. Field office personnel agreed that
such prompts would assist them in complying with policies and procedures. In addition,
when field office personnel determine that individuals are eligible to receive replacement
SSN cards, systems controls would prevent personnel from completing the application
until they delete the appropriate Special Indicator code from the Numident.

SSA has an additional opportunity to enhance the effectiveness of Special Indicator
codes by adding alerts to its Customer Service Query. 14 While a Customer Service
Query alerts field office personnel to the presence of Special Indicator codes 1 through
6 on the Numident, it does not provide alerts for codes 7 through 9. As such, field office
personnel may not take additional steps to ensure applicants are who they claim to be
or recognize issues that could impact program eligibility. Therefore, we believe the
Customer Service Query should include alerts for all Special Indicator codes.



12
  Because SSN printouts contain individuals’ names and SSNs, unauthorized release of such information
can result in SSN misuse and/or identity theft.
13
 SSNAP will ultimately replace the SS-5 Assistant and the MES as the front-end software supporting
SSN processing. SSA is scheduled to begin phasing in SSNAP Release 1.0 on August 31, 2009.
14
  Field office personnel routinely use this Query during face-to-face interviews to help them verify
applicant identities and identify issues that could impact program eligibility.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Despite SSA’s use of Special Indicator codes to prevent improper SSN issuance and
unauthorized disclosure of information, the Agency remains at risk to such activity when
field office personnel do not fully comply with policies and procedures. It is important
that field office personnel properly add/delete Special Indicator codes to help alert other
employees/field offices to special or potentially fraudulent situations and ensure that
SSA’s records are complete and accurate. We believe SSA would benefit by taking
additional steps to ensure field office compliance with Special Indicator code policies
and procedures and thereby strengthen SSN integrity.

Accordingly, we recommend that SSA:

1. Assess its policies and procedures regarding Special Indicator codes and clarify as
   necessary.

2. Provide refresher training to field office personnel on policies and procedures
   regarding Special Indicator codes.

3. Implement system enhancements that would alert field office personnel to
   add/delete Special Indicator codes, including situations in which policies and
   procedures require OIG approval.

4. Consider implementing systems controls to prevent field office personnel from
   issuing replacement SSN cards before the appropriate Special Indicator code is
   deleted from the Numident.

5. Review all situations where field offices issued replacement SSN cards for SSNs
   with Special Indicator codes 2 or 5 on the Numident and determine whether the
   Agency should delete these codes.

6. Correct Numident records having Special Indicator code 3 with no cross-referred
   SSN(s).

7. Add alerts for Special Indicator codes 7, 8, and 9 to its Customer Service Query.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.



                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Historical Trends
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
FY      Fiscal Year
MES     Modernized Enumeration System
OCO     Office of Central Operations
OIG     Office of the Inspector General
SSA     Social Security Administration
SSN     Social Security Number
SSNAP   Social Security Number Application Process
VIP     Visitor Intake Process
                                                                                 Appendix B

    Historical Trends
    Figures 1 and 2 below show the historical trends of Special Indicator codes on the
    Numident through November 2008. 1 The Social Security Administration (SSA)
    established Special Indicator codes 1 through 5 in 1992. It added code 6 in 1999,
    code 7 in 2004, and codes 8 and 9 in 2007.

                      Figure 1: Historical Trends of Special Indicator Codes 1 - 5

         5000



         4000



         3000



         2000



         1000



            0
               92

               93

               94

               95

               96

               97

               98

               99

               00

               01

               02

               03

               04

               05

               06

               07

               08
            19

            19

            19

            19

            19

            19

            19

            19

            20

            20

            20

            20

            20

            20

            20

            20

            20               Code 1      Code 2     Code 3      Code 4      Code 5


         Note: In Calendar Year 2002, Social Security numbers (SSN) with Special Indicator code 2 on
         the Numident increased 743 percent from the prior year (from 376 to 3,171) while SSNs with
         Special Indicator code 5 increased over 200 percent (from 1,557 to 4,730). Personnel with
         SSA’s Office of Income Security Programs attributed these increases to heightened awareness
         by field office staff to fraudulent documents in the wake of the events of September 11, 2001.




1
 The source for Figures 1 and 2 was Office of the Inspector General analysis of SSA’s Numident data as
of November 2008. Special Indicators added and then deleted are not included in the figures.


                                                  B-1
       Figure 2: Historical Trends of Special Indicator Codes 6 - 9

5000


4000


3000


2000


1000


   0
       1999 2000 2001 2002 2003 2004 2005 2006 2007 2008

                   Code 6      Code 7       Code 8      Code 9


Note: The high volume of Special Indicator code 6 records added in 2000 by SSA’s
Office of Central Operations (OCO) can be attributed to the fact that OCO initially
added this code to existing SSNs assigned for reasons of harassment, abuse, or life
endangerment. The high volume of Special Indicator code 7 records in 2006
(increase of 468 percent from 2005) can be attributed to several large fraud cases
investigated by the Office of the Inspector General.




                               B-2
                                                                     Appendix C

Scope and Methodology
To achieve our objective, we reviewed pertinent sections of the Social Security
Administration’s (SSA) policies and procedures and interviewed representatives from
SSA’s Offices of

   Income Security Programs under the Deputy Commissioner for Retirement and
    Disability Policy;

   Public Service and Operations Support and Central Operations under the Deputy
    Commissioner for Operations; and

   Retirement and Survivors Insurance Systems under the Deputy Commissioner for
    Systems.

To determine the level of employee awareness and use of Special Indicator codes, we
contacted 20 field offices (we visited 3 field offices and contacted 17 others by
telephone). We selected field offices based on the volume and type of Special Indicator
code activity and geographic diversity, including at least one field office in each SSA
region.

To test the effectiveness of controls over issuing replacement Social Security number
(SSN) cards and printouts, the accuracy of codes, and the generation of systems alerts,
we obtained a data extract from SSA’s Numident of 45,736 SSNs having 1 or more
Special Indicator codes as of November 2008. From this population we:

   Matched all records to the Numident and identified replacement SSN cards issued
    following the addition of Special Indicator codes 2 (575 cards) and 5 (23 cards). We
    then reviewed selected actions to determine whether SSA had obtained the
    appropriate evidence before issuing replacement SSN cards.

   Matched all records to SSA’s Audit Trail System to identify SSN printouts following
    the addition of a Special Indicator. We then reviewed selected records to determine
    whether SSA properly issued printouts.

   Performed on-line testing of selected Numident records for each Special Indicator
    code to determine whether we could generate an SSN printout.

   Determined whether 2,718 SSNs with Special Indicator code 3 on the Numident had
    cross-referenced SSNs.

   Performed on-line testing of SSA’s Customer Service Query and SS-5 Assistant to
    determine whether systems properly generated alerts for each Special Indicator.

                                           C-1
To test the effectiveness of controls related to adding and deleting Special Indicator
codes to the Numident, we obtained a data extract from SSA’s Special Indicator
Transaction File of 2,279 code additions and 510 code deletions during
Fiscal Year 2008. From this population, we:

   Reviewed all 13 Special Indicator code 7 deletions from the Numident to determine
    whether SSA had obtained Office of the Inspector General (OIG) approval. We did
    not review Special Indicator code 8 deletions because SSA policy requiring OIG
    approval for deletion was not implemented until November 2008.

   Processed 25 SSNs with Special Indicator code 8 on the Numident and 25 SSNs
    with Special Indicator code 9 through SSA’s Enumeration Verification System to
    determine whether the System generated the proper response (that is, SSN did not
    verify—other reason).

   Determined whether 232 SSNs with Special Indicator code 8 on the Numident
    agreed with fraud cases in OIG’s National Investigative Case Management System.

   Determined whether 403 SSNs with Special Indicator code 9 on the Numident
    agreed with the number of SSN applications in SSA’s Modernized Enumeration
    System where field office personnel documented SSN misuse and disadvantage.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We performed our audit at the Office of Audit in Birmingham, Alabama. Our review of
internal controls was limited to SSA’s policies and procedures for processing SSN
applications when Special Indicator codes are present on the Numident and for adding
and deleting Special Indicator codes. We primarily relied on SSA’s Numident and
Special Indicator Transaction Files to complete our review and determined that the data
used in the report were sufficiently reliable given the audit objective and use of the data.
We conducted our work from January through May 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




                                            C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      August 12, 2009 Refer                                                 Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Robin Kaplan for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Effectiveness of Special Indicator Codes
           on the SSA's Numident File" (A-08-09-19099)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "EFFECTIVENESS OF SPECIAL INDICATOR CODES ON THE SSA'S
NUMIDENT FILE" (A-08-09-19099)

We are pleased that the report did not identify evidence of erroneous assignment of Social
Security numbers (SSN), improper issuance of new or replacement cards, or improper SSN
disclosure as a result of the inconsistent treatment of special indicator codes (SPIN) on the
Numident. We agree with the report’s findings and recommendations. We will consider policy
and automated solutions where possible in future releases of our redesigned enumeration system,
referred to as the Social Security Number Application Process (SSNAP).

Please find below our responses to the recommendations.

Recommendation 1

Assess its policies and procedures regarding special indicator codes and clarify as necessary.

Comment

We agree. We are currently updating policies and procedures, including special indicator codes,
in the Program Operations Manual System in conjunction with the release of SSNAP scheduled
for fall 2009.

Recommendation 2

Provide refresher training to field office (FO) personnel on policies and procedures regarding
special indicator codes.

Comment

We agree. We will include this topic in the training that we are planning this fall when we
implement SSNAP.

Recommendation 3

Implement system enhancements that would alert FO personnel to add/delete special indicator
codes, including situations in which policies and procedures require OIG approval.

Comment

We agree. There are currently several systems messages that alert personnel to the presence of
special indicator codes 1, 2, 4, 5, 7, 8, and 9 on the Numident record, along with detailed
procedures on how to resolve these alerts. The refresher training planned for the implementation
of SSNAP will include information on adding or resolving these specific cases. In addition, we
are proposing a SSNAP Release 2 enhancement that will require OIG approval before allowing
the deletion of special indicator codes 7 and 8.


                                               D-2
Recommendation 4

Consider implementing systems controls to prevent FO personnel from issuing replacement SSN
cards before the appropriate special indicator code is deleted from the Numident.

Comment

We agree. There are current systems controls in place to prevent the initial release of
replacement cards where specific SPIN codes are present. However, as we move forward with
SSNAP Release 2, we will explore additional systems controls that may facilitate a more
effective use of SPIN codes to prevent FO personnel from issuing SSN cards before deleting
necessary SPIN codes from the Numident.

Recommendation 5

Review all situations where field offices issued replacement SSN cards for SSNs with special
indicator 2 or 5 on the Numident, and determine whether the agency should delete these codes.

Comment

We agree. Presently, these cases are under review.

Recommendation 6

Correct Numident records having Special Indicator code 3 with no cross-referred SSN(s).

Comment

We agree. We will take the necessary action when we receive the cases from OIG.

Recommendation 7

Add alerts for special indicator codes 7, 8, and 9 to its Customer Service Query.

Comment

We agree. We will add codes 7, 8, and 9 to the Customer Service Query as resources become
available.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-19099.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                            Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
